•>s

t

I

)

1
I

APP£/tArV P

Case 20-4070, Document 19, 05/21/2021, 3105502, Page,1 of 1

W.D.N.Y.
12-cv-6180
Siragusa, J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT
r

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 21st day of May, two thousand twenty-one.
Present:

n.

John M. Walker, Jr.,
Jose A, Cabranes,
Richard C. Wesley,
Circuit Judges.
Bernabe Encarnacion,
Plaintiff-Appellant, l
20-4070

v.

Glenn Goord, Commissioner of DOCS, et al.,
Defendants-Appellees.
Appellant, pro se, moves for leave to appeal, to proceed in forma pauperis, and for appointment of
counsel. Upon due consideration, it is hereby ORDERED that the motion for leave to appeal is
DENIED as unnecessary. The leave-to-file sanction that this Court imposed on Encarnacion
provides “that the Clerk of the Court refuse to accept for filing any future submissions from the
Petitioner challenging his 1991 Onondaga County conviction, unless he first obtains leave of the
Court to file such papers,” but that conviction is not an issue in this appeal. 2d Cir. 17-2957, doc.
. 29 (Or.). It is further ORDERED that the remaining motions are DENIED and the appeal is
DISMISSED because it “lacks an arguable basis either in law or in fact.” Neitzke v. Williams, 490
U.S. 319, 325 (1989); see also 28 U.S.C. § 1915(e).
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

i

The Clerk’s Office is directed to amend the caption as reflected above.

APPwblX A

Case 6:12-cv-06180-CJS-MWP Document 93 Filed 10/28/20 Page 1 of 1
Judgment in a Civil Case
United States District Court
WESTERN DISTRICT OF NEW YORK

BERNABE ENCARNACION,

JUDGMENT IN A CIVIL CASE
CASE NUMBER: 12-CV-6180-CJS

Plaintiff,
v.
GLENN GOORD, Commissioner of DOCS,
MICHAEL P. MCGINNIS, Superintendent ofSCF,
DAVID ROCK, Superintendent ofGMCF,
DONLAD SESKY, Director of SHU,
Defendants.

□ Jury Verdict. This action came before the Court for a trial by jury. The issues have
been tried and the jury has rendered its verdict.
IE Decision by Court. This action came to trial or hearing before the Court. The
issues have been tried or heard and a decision has been rendered.
IT IS ORDERED AND ADJUDGED: that Defendants’ motion for summary judgment is
granted and this action is dismissed with prejudice.

Date: October 28, 2020

MARY C. LOEWENGUTH
CLERK OF COURT
By: K.McMillan
Deputy Clerk

i

UNITED STATES COURT OF APPEALS
' "T’ortMe
second Circuit
L

«»^^i!£2K!h2^

<*•* *■«

*••*£ inS&SSSSSLf '*’*??
Bemabe Encamacion,

°»

r-v

ORDER
Docket No, 20-4070

Petitirniar,
v
Oienn Goord, Commissioner of DOCS, Michael P.
McGinnis, SuperinteftdentofSCF, David Rock
Superintendent ofGMGF, Donald fitliky, Director of
SHU,
Respondents <

.

eal.

W-252SS <££* **" D~"b

er29, 2020 unless

For The Court:
Catherine O’Hagan Wolfe,
Clerk of Court

<P-

pP&nJfXfll

u

u
Becrete FBcamseiai, SI B Q943
Attica Garnxtiaial Facility
639 ©charge Street, P,0. Bax 1A9
Atu

Decorber 24, 2(H)

Hon. Catherine O'Hs^n Walfe, U.S* GLack
United States Gpurfc of Appeals
Second Circuit of New York
40 Foley Scjjars
towYock, towYbrklQG07
RE: Etarrcadai v. Goord, et al. , Docket No; 20-4070
\4M to. 12-0^6180
Daardeck O'te^ tfclfe;
Eidcjsai please find as for filing plaintiff's. Motion for penfeLon leave to meal,
IEP, assi^ianant of px> bono counsel with s$*x)rtdng affidavit, axi certificate of service.
/

^ a ccpy of this later X served a coiplet and exact ccpy of the enclosed papers tae fcy
first-class' mail vpxi; letitia Janes, Attorney Gaxrla, State of NY., 144 Etehated Edulawd,
Rochester, tow York 14614; and Frederick A. HcoctLa, Assistant
General, Iha
Gapitol, Albany, tow Yock 12224.
^
\fery.Tculy Youcs
’V

*5
W

"

• ■

Becnabe Bmacnadcn
PMntiff/^psllant Vco Se

1

'N

u u

3

15-2980-pr
Encamacion v. Goord

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

SUMMARY ORDER
Rulings by summary order do not have precedential effect. Citation to a summary order filed
on or after January 1, 2007, is permitted and is governed by Federal Rule of Appellate
Procedure 32.1 and this Court’s Local Rule 32.1.1. When citing a summary order in a
document filed with this Court, a party must cite either the Federal Appendix or an
electronic database (with the notation “summary order”). A party citing a summary order
must serve, a copy of it on any party not represented by counsel. .
At a stated term of the United States Court of Appeals for the Second Circuit, held at
the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York,
on the 7,h day of October, two thousand sixteen.
PRESENT:

JOHN M. WALKER, JR.,
Jose A. Cabranes,
Raymond J. Lohier,Jr.,
CircuitJudges.

Bernabe Encarnacion,
$

15-2980-pr

Plaintiff-Appellant,
v.

Glenn Goord, Commissioner, Department of
Correctional Service, Donald Selsky,
Director of the Special Housing Unit,
Michael P. McGinnis, Superintendent of the
Southport Correctional Facility, and David
Rock, Superintendent of the Great Meadow
Correctional Facility,
Defendants-Appellees.

Bernabe. Encamacion, proceedingpro se,
Attica, NY.

FOR PLAINTIFF-APPELLANT:

s,

1

' u

I

KJ

No appearance.

FOR APPELLEES:

Appeal from a judgment of the United States District Court for the Western District of New
York (David G. Larimer, Judge).

r

UPON DUE CONSIDERATION WHEREOF, IT IS HEREBY ORDERED,
ADJUDGED, AND DECREED that the August 20, 2015 judgment of the District Court is
VACATED IN PART, AND THE CAUSE IS REMANDED.
Appellant Bernabe Encarnacion (“Encarnacion”), proceeding pro se, appeals from the
District Courts judgment dismissing sua sponte his 42 U.S.C. § 1983 claims alleging that his Eighth
Amendment rights were violated when he was confined in the special housing unit (“SHU”) for
more than 11 years, and denied hygiene products and food. As permitted by statute, the District
Court dismissed these claims prior to service on the defendants.1 See 28 U.S.C. § 1915(e)(2)(B) and
1915A. Nonetheless, we have appellate jurisdiction over an appeal on the sua sponte dismissal. See
McEachin v. McGuinnis, 357 F.3d 197, 200-01 (2d Cir. 2004). We assume the parties’ familiarity with
the underlying facts, the procedural history of the case, and the issues on appeal.

We review the sua sponte dismissal of a complaint de novo. McEachin v. McGuinnis, 357 F.3d
197, 200 (2d Cir. 2004). Pro se submissions are reviewed with “special solicitude,” and “must be
construed liberally and interpreted to raise the strongest arguments that they suggest.” Triestman v.
Federal Bureau of Prisons, 470 F.3d 471, 474-75 (2d Cir. 2006) (internal quotation marks and emphasis
omitted).
“Confinement in a prison or in an isolation cell is a form of punishment subject to scrutiny
under Eighth Amendment standards.” Hutto v. Finney, 437 U.S. 678, 685 (1978). To succeed on an
Eighth Amendment claim, a plaintiff must show “(1) a deprivation that is objectively, sufficiendy
serious that he was denied the minimal civilized measure of life’s .necessities, and...(2) a sufficiendy
culpable state of mind on the part of the defendant official.” Gaston v. Coughlin, 249 F.3d 156, 164
(2d Cir. 2001) (internal quotation marks omitted). “[Wjhether incarceration in the SHU violates the
Eighth Amendment. depends on the duration and conditions of confinement.” Gon%ale% v. Hasty,
802 F.3d 212, 224 (2d Cir. 2015). “Although it is perfeedy obvious that every decision to remove a
particular inmate from the general population . . . could not be characterized as cruel and unusual, it

1 The defendants were never served and, therefore, are not parties to this appeal. See Lems v. State
ofN.Y. 547 F.2d 4,6 (2d Cir. 1976). However, we directed the New York State Attorney General’s .
Office to file a brief as amicus curiae in support of the position of the defendants. That brief was
submitted on,September 23, 2016. See No. 15-9080, ECF No. 1869920 (Sept. 23, 2016).

2

A*6

u u

, v

‘O'

is equally plain that the length of confinement cannot be ignored in deciding whether the overall
conditions of confinement meet constitutional standards.” Id (internal quotation marks and
alterations omitted). Courts consider whether the confinement violates “the evolving standards of
decency that mark the progress of a maturing society.” Trop v. Dulles, 356 U.S. 86,101 (1958).
Upon review, we conclude that the district erred in dismissing Encarnacion’s amended
complaint sua sponte because it did not consider the overall conditions of confinement of his SHU
sentence. In particular, the District Court failed to consider the relevance of Encarnacion’s 11-year
confinement in SHU. Moreover, Encarnacion alleged that he was deprived of hygiene products and
“daily meals” while in SHU. The district court also should have considered those allegations as part
of the overall conditions of his SHU confinement. See W^alker v. Schult, 717 F.3d 119, 127 (2d Cir.
2013) (“|T]he failure to provide prisoners with toiletries and other hygienic materials may rise to the
level of a constitutional violation.”); Robles v. Coughlin, 725 F.2d 12, 16 (2d Cir. 1983) (“[UJnder
certain circumstances a substantial deprivation’ of food may well be recognized as being of
constitutional dimension”). Finally, we cannot “discern from the district court’s analysis whether it
adequately considered the possibility that [the alleged violation] offends contemporary standards of
decency.” Harris v. Miller, 818 F.3d 49, 65 (2d Cir. 2016).
Because Encarnacion does not raise any issue with respect to the District Court’s dismissal
of his double jeopardy claim, we conclude that he has abandoned any challenge to the dismissal of
that claim. SeeHoSacco v. City ofMiddletown, 71 F.3d 88, 92-93 (2d Cir. 1995).
Accordingly, the District Court’s judgment is VACATED IN PART, AND THE CAUSE
IS REMANDED for further proceedings consistent with this order.2
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk

2 Our vacatur and remand are without prejudice to any dispositive motion that defendants .may
file after they have been served with the amended complaint.

3

)X

f

12-3953
Encamacion v. Goord

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY 1,2007, IS PERMITTED AND IS GOVERNED
BY FEDERAL RULE OF APPELLATE PROCEDURE 32.1 AND THIS COURT’S LOCAL RULE 32.1.1.
WHEN CITING A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY
MUST CITE EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DATABASE (WITH THE
NOTATION “SUMMARY ORDER”). A PARTY CITING A SUMMARY ORDER MUST SERVE A COPY
OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated Term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York on the
23rd day of September, two thousand fourteen.
Present:

ROSEMARY S. POOLER,
RAYMOND J. LOHIER, JR.,
Circuit Judges.
VALERIE CAPRONI,
District Judge.

BERNABE ENCARNACION,
Appellant,
12-3953-pr

-vDAVID ROCK, SUPERINTENDENT, GREAT MEADOW
CORRECTIONAL FACILITY, DONALD SELSKY,
DIRECTOR, SPECIAL HOUSING UNIT, GLENN GOORD,
COMMISSIONER, DEPARTMENT OF CORRECTIONAL
SERVICE, MICHAEL P. MCGINNIS, SUPERINTENDENT2,
SULLIVAN CORRECTIONAL FACILITY,
Appellees.

Appearing for Appellant:

Bernabe Encamacion, Attica, N.Y.

1 The Honorable Valerie Caproni, United States District Court for the Southern District
of New York, sitting by designation.
. 2 The Clerk of the Court is directed to amend the caption as above.

kj

J

i'i

f

Appeal from the United States District Court for the Western District of ^ew York
(Larimer, J.).

h

ON CONSIDERATION WHEREOF; IT IS HEREBY ORDERED, ADJUDGED,
AND DECREED that the judgment of said District Court be and it hereby is DISMISSED. '
j

C. . Be™abe Epearnacion appeals from the August 27; 2012 decision and,order of thfe United
States District Court for the'Western District of New York (Larimer, J.) sua sponte dismissing
his action seeking relief under 42U.S.C. § 1983. We assume the parties’ familiarity with the
underlying facts, the procedural history of the case, and the issues on appeal.
•
\
- /'

u,. , We ^ jurisdiction over Encamacion’s appeal because it is taken from a nonfinal order..
With several exceptions not applicable here, a district court order is appealable only if the
district court enters a final order. 28 U.S.C. § 1291. A final order is one that “ends the litigation
on the merits and leaves nothing for the court to do but execute the judgment.” Coopers &
Lybrandv. Livesay, 437 U.S. 463, 467 (1978) (internal quotation marks omitted). Wela*ck
jurisdiction over an appeal where, as here, the district court enters final judgment despite
overlooking claims contained in the complaint. See United States ex ret Polansky v Pfizer Inc
2014 WL 3844149 (2d Cir. Aug. 6,2014).
'
*
J ' J *’

l

1

The district court decision and order is silent as to Encarnacion’s allegations that he ;was
subjected to cruel and unusual punishment in violation of the Eighth Amendment. There is no
apparent explanation for the district's court’s silence, and its ruling on Encamacion’s double
jeopardy claim is unrelated to his Eighth Amendment claim. If the district court intended to
>
dismiss the Eighth Amendment claims as well, then it may clarify its reasons for.dismissal, and
re-enter final judgment. .Otherwise, the Eighth Amendment claim will likely proceed to final
adjudication. Either of those scenarios would establish a jurisdictional basis for a subsequent
i

!

4.

Accordingly, we DISMISS the appeal for lack of appellate jurisdiction.

FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk

'

■

J SECOND UV

m.

k■m-

s.

X

s'

j
.'■7-

\

2

V

.v>

r

Aj>P£Nfcr)<

R

Encarnacion v. Goord, Slip Copy (2020)

2020 WL 6291473
Only the Westlaw citation is currently available.
United States District Court, W.D. New York.
♦\

*4

Bemabe ENCARNACION, Plaintiff,
v.
Glenn GOORD, Commissioner of Doccs, Michael P.
McGinnis, Superintendent of Southport Correctional
Facility, David Rock, Superintendent of Great
Meadow Correctional Facility, and Donald Selsky,
Direction of Special Housing Unit, Defendants.
12-CV-6180 CJS
Signed 10/27/2020
Attorneys and Law Firms
Bernabe Encarnacion, Attica, NY, pro se.
Heather Lynn McKay, New York State Attorney General's
Office Department of Law, Rochester, NY, Ryan Lane. Belka,
NYS Attorney General's Office, Buffalo, NY, for Defendants.

DECISION AND ORDER
CHARLES J. SIRAGUSA, United States District Judge

An August 10, 1996. while Plaintiff was incarcerated at
Auburn Correctional Facility (“Auburn”),1 he was involved
in a fight with another- inmate, immediately after which the
other inmate died from stab wounds.2 As a result, on or about
February 17, 1998, Plaintiff was convicted in Cayuga County
Court of Murder in the Second Degree in violation of New
\ork Penal Law § 125.25 and Promoting Prison Contraband
in the First Degree, in violation of Penal Law § 205.25[2].
Plaintiff was subsequently charged with two counts of
violating' 7 New York Code Rules and Regulations
("NYCRR") § 270.2, DOCS Standards of Inmate Behavior
Rule 1.00, "Pena! Law Offense," based upon his criminal
convictions for murder and promoting prison contraband.
Following a Tier III disciplinary hearing. Plaintiff was found
guilty- and sentenced to, truer alia, 10 years in the SHU. That
10-year SHU sentence began on February 17, 1998 and ended
on February 17, 2008. 3
*2 On or about February 13, 1998, at approximately the
same time that Plaintiff received his 10-year SHU sentence,
he committed another disciplinary- infraction that resulted in
him receiving additional time in SHU. Specifically, during
closing arguments at his murder trial, Plaintiff assaulted
• his defense attorney with a chair. Plaintiff was issued a
misbehavior report for violent conduct, found guilty, and
sentenced to an additional 180 days in the SHU, which was
served between February 17, 2008 and August 15, 2008.4

INTRODUCTION'
*1 In this action, Plaintiff, a prison inmate, asserts an Eighth
Amendment “conditions of confinement” claim under 42
U.S.C. § 1983 (“Section 1983”) relating to a period of almost
eleven years that he spent confined in the Special Housing
Unit (“SHU”). Now before the Court is Defendants' motion
for summary judgment (ECF No. 87). The application is
granted and this action is dismissed.
BACKGROUND
The reader is presumed to be familiar with the record on
summary judgment. The Court will summarize the facts
relevant to Defendants’ summary judgment motion. Unless
otherwise noted, the facts are undisputed and viewed in thelight most-favorable to Plaintiff.

Subsequently, in 2003, w-hile Plaintiff was serving the
first of his SHU sentences, he committed another
disciplinary infraction for which he received still additional
- time in SHU. Specifically, on May 1, 2003, Plaintiff
was issued a misbehavior report charging him with
“money/unauthorized property,” “smuggling” and “facility
c
“75n?ence vU,lation"; 0,1 Ma>' ,4’ 2003>
was found guilty of those infractions and sentenced to an
additional six months in SHU, to be served between August
15,2008 and February 15, 2009.6
Thereafter, while still in SHU, Plaintiff was convicted
of committing additional disciplinary infractions. However,
those convictions resulted in Plaintiff receiving sentences
of “keeplock,” not SHU. Regarding-the difference between
keeplock and SHU, the Second Circuit has noted that the
former typically involves an inmate being locked into his
usual cell in general population, while the latter involves
solitary- confinement in a separate SHU-designated section

mppmzx XX

WESTLAW Cc> 2021 Thomson Reuters. No claim to original U.S Govern

1

Encarnacion v. Goord, Slip Copy (2020) •

of a facility. See, e.g., H'Sh aka v OXionnan, 758 F.
App'x 196, 197 (2d Cir. 2019) (“Several violations led to
disciplinary confinement alone in his cell (“keepiock") or
alone in the prison's special housing unit (•■SHU’’)."). Another
court has described the difference between the two forms of
disciplinary- confinement as follows:

Keepiock is a form of confinement
restricting an inmate to his or her ceil,
separating the inmate from others, and
depriving him or her of participation
in normal prison activities, inmate
conditions while keeplocked are
substantially the same as in the
general population. While on keepiock
confinement an inmate is confined to
his or her genera! population cell for
twenty-three hours a day, with one
hour for exercise. Keeplocked inmates
can leave their cells for showers,
visits, medical exams, and counseling,
and can have cell study, books, and
periodicals. The primary difference
between keepiock and the general
population confinement conditions is
that keeplocked inmates do not leave
their cells for out-of-cell programs,
and are usually allowed less time
out of their cells on the weekends.
Keepiock is a less severe penalty than
SHU; for example keeplocked inmates
have access to their personal property,
while SHU inmates do not. In addition,
keeplocked inmates are afforded more
liberal visitation rights.

*3 Cramp

Ekpe, No. 9:07-CV-133i LEK DEP, 2010
WL 502762, at *2, n. 4 (N.D.N.Y. Feb. 8, 2010) (citations
omitted).. Although, in some cases a keepiock sentence may
be served in SHU. See, Smith v, Taylor, 149 F. App'x 12,
13 (2d Cir. 2005) (“Although defendants urge that Smith's
sentence was to keepiock and not to the SHU, he apparently
served his keepiock sentence in the SHU.”).
As to his first keepiock sentence, it resulted from a
misbehavior report issued on or about September 5, 2003. for
refusing a direct order.7 On September 18, 2003, Plaintiff

was found guilty of that infraction and sentenced to 30 day s in
keepiock, to be served between February 15, 2009 and March
17. 2009. 8
Then, on or about November 1, 2003, Plaintiff was issued
a misbehavior report charging him with “interfering with an
employee, “refusing a direct order” and “refusing a search
or frisk.” On November 7, 2003, Plaintiff was found guilty of
those infractions and sentenced to 30 days in keepiock, to be
served between March 17, 2009 and April 16, 2009.9
On or about October 20, 2004, Plaintiff was charged with
refusing a direct order. On November 1, 2004, Plaintiff
was found guilty and sentenced to an additional 20 days in
keepiock, to be served between April 16, 2009 and May 6,
2009.10
On June 21, 2005, Plaintiff was charged with making false
statements and refusing a direct order. On July 1, 2005.
Plaintiff was found guilty and sentenced to 30 days in
keepiock, with 15 days suspended, to be served between
November 3, 2009 and November 18, 2009. 11
On March 28, 2006, Plaintiff was charged with “bribery' or
extortion,” “interference with employee" and "refusing direct
order." On March 31,2006, Plaintiff was found not guilty of
bribery or extortion, but guilty of the other two offenses, and
was sentenced to 21 days in keepiock, to be served between
November 18, 2009 and December 9, 2009. 12
Regarding the locations where these disciplinary infractions
were committed, the first disciplinary infraction (murder,
promoting contraband), for which Plaintiff received a tenyear SHU sentence, was committed while Plaintiff was at
Auburn. The second infraction (striking defense attorney
with a chair), for which Plaintiff received an additional six
months in SHU, was committed while Plaintiff was housed at
Elmira Correctional Facility ("Elmira”). The third infraction
(smuggling), for which Plaintiff received an additional six
months in SHU, was committed while Plaintiff was at
Southport Correctional Facility' (“Southport”). The remaining
convictions, for which Plaintiff received varying sentences
in keepiock, were also committed while Plaintiff was at
Southport.
Plaintiff actually served his 10-year SHU sentence between
February' 17, 1998 and February 17, 2008. 13 Plaintiff
maintains that he served part of that sentenceat Elmira,
between February 17, 1998 an September 1999,f4 and the

ftp pp Al &ZX

W6STLAW © 2021 Thomson Reuters. No claim to original U.S. Cover

2,

Encarnacion v. Goord, Slip Copy (2020)

remainder of that sentence at Southport, between September
15

1999 and February 17, 2008.
Plaintiff served the 180-day
SHU sentence for violent conduct (assaulting his attorney)
at Southport between February 17. 2008 and August 15,
2008.10 As mentioned earlier, Plaintiff was supposed toserve
another six-month SHU sentence, for smuggling, between
August 15,2008 and February 15,2009. However, forreasons
that are unclear in the record (evidently Plaintiff received a
“time cut”), Plaintiff actually only served three (3) months in
SHU for that conviction, at Southport, between August 15,
2008 and November 15, 2008. ^Consequently, the last of
Plaintiffs SHU sentences ended on or about November 15,
2008.
*4 Thereafter, Plaintiff served a series of keeplock
sentences, between November 15, 2008 and March 11,
i o

2009. ‘ However, Plaintiff served those keeplock sentences
at Great Meadow Correctional Facility (“Great Meadow”),
not Southport. In that regard, records indicate that Plaintiff
was transferred -from Southport to Great Meadow on
• November 17, 2008, two days after he finished his SHU
sentences.• 19 After March 11, 2009, Plaintiff did not serve
any further punitive sentences in keeplock or SHU until
November 30, 2012, when he began serving a new 6month SHU sentence at Great Meadow for a new infraction
committed while he was at Great Meadow.20
On March 13, 2012. Plaintiff, proceeding pro sc. filed a
Complaint and an application to proceed in forma pauperis.
However, “[ujnderthe prison mailbox rule, a prose prisoner’s
complaint is deemed filed upon its delivery to prison
authorities for transmittal to the district court.” Sides v.
Paolano, 782 F. App'x 49, 50 (2d Cir. 20 i 9) (citation omitted).
Here, both the Complaint and the application to proceed in
forma pauperis are signed and dated on March 8, 2012, and
it appears that was the date that Plaintiff delivered his papers
• to prison authorities for mailing. Accordingly, the Court will
. deem this action to have been commenced on March 8, 2012.
Plaintiff filed the action in the U.S. District Court for the
Southern District of New York, which transferred the action
to this Court.
On August 28, 2012, this Court (Larimer, J.) granted
Plaintiffsmotion to proceed in forma pauperis and dismissed
the action, pursuant to 28 U.S.C. § § 1915(e)(2)(B) and
1915(A), finding that it was duplicative of an earlier action
that he had filed in this Court asserting a “double jeopardy”
claim relating to the disciplinary charges that resulted in his

ten-year SHU sentence. See, Decision and Order. ECF No.
8 (dismissing action with prejudice as duplicative of action
Encarnacion v. McGinnis, 02-CV-6380 CJS. dismissed at
2005 WL 3018728 (W.D.N.Y. Oct. 26. 2005)).
Plaintiff appealed the dismissal, and on September23, 2014,
the United States Court of Appeals for the Second Circuit
("the Second Circuit”) dismissed the appeal, finding that
this Court's order .dismissing Plaintiffs action was non-final,
since this Court had "overiook[ed] claims contained in the
complaint.” Specifically, the Second Circuit's order stated:

The district court decision and order
is silent as to Encarnacion's allegations
that he was subjected to cruel and
unusual' punishment in violation of
the Eighth Amendment. There is no
apparent explanation for the district's
court's silence, and its ruling on
Encarnacion's double jeopardy claim
is unrelated to his Eighth Amendment
claim. If the district court intended
to dismiss the Eighth Amendment
claims as well, then it may clarify
its reasons for dismissal, and re­
enter final judgment. Otherwise, the
Eighth Amendment claim will likely
proceed to final adjudication. Either
• of those scenarios would establish a
jurisdictional basis for a subsequent
appeal.

Second Circuit Mandate, ECF No. 12. Consequently, the
matter was remanded to this Court for clarification of its
dismissal order and consideration of an Eighth ‘Amendment
“cruel and unusual punishment claim."
On November 10, 2014, this Court (Larimer, J.) issued an
Order (ECF No. 13) finding that the Complaint’s allegations
concerning a SHU-related 8 th Amendment claim were
conclusory and failed to state ah actionable claim. However,
the Order gave Plaintiff an opportunity to file an amended
pleading “that addresses only an.Eighth Amendment claim.”
The Order also dismissed the official capacity claims against
the Defendants, with prejudice, and instructed Plaintiff that
any amended pleading would need to plausibly state grounds
for pursuing claims against the Defendants in their individual

WSSTLAW © 2021 Thomson Reuters. No claim to original U.S. Cover

Encarnacion v. Goord, Slip Copy (2020)

capacities. The Order advised Plaintiff that any amended
pleading would completely replace the original Complaint.
*5 On January- 26, 2015, Plaintiff filed an Amended
Complaint, ECF No. 16 consisting of a 7-page form complaint
and an attached 65-page Complaint. (This pleading remains
the operative pleading in this action.) When asked, as pan of
the form complaint, to explain the nature of his claim, Plaintiff
stated:

Confined me twice in SHU 23 to 24
hours a day in solitary confinement
daily for over of 11- years [sic]
arose from the same underlying
8/10/96 incident21 illegally violated
8* and 14th Amendments U.S.C.A.
Constitution.

ECF No'. 16 at p. 5. With regard to supposedly having
been confined “twice,” the pleading asserts that Plaintiff
had two distinct periods of confinement in the SHU:
- "8/10/96 thru 1/8/97” and “2/17/98 thru 3/11/09,” all for “the
same underlying 8/10/96 incident.”22 The Court observes,
however, that both of those assertions have been clearly
refuted by the record, including by documents that Plaintiff
submitted himself. That is, the period of 8/10/96 through
1/8/97 to which the pleading refers was not actually an
SHU disciplinary sentence, but rather, was a period in which
Plaintiff was kept in administrative segregation while an
investigation into the deceased inmate's death was being
conducted.23 Moreover, the pleading does not appear to
identify any particular constitutional violation that occurred
during that period of administration segregation in any
event. Additionally, the pleading was incorrect to assert that
Plaintiffs entire time in SHU was related to “the same
underlying 8/10/96 incident” since, as already discussed,
the total period of time that Plaintiff spent in SHU was a
combination of three separate disciplinary sentences arising
from unrelated incidents. Moreover, the period between
November 2008 and March 2009 was designated as keeplock:
not SHU.
In any event, the pleading further asserts that Plaintiff spent
“4042 consecutive days,” more than eleven years, in SHU
confinement at Southport:

Defendants placed Encarnacion in
extreme isolation as punishment for
more than 4042 consecutive days
of SHU solitary confined at- SCF
[Southport Correctional Facility] SHU .
well known as the \vors[t] SHU facility
in New York State and number 3 in the • •
nation.24

However, that assertion is also factually incorrect, since
as already mentioned. Plaintiffs SHU time was divided
between Elmira and Southport. In particular, Plaintiff spent
approximately nineteen months, in Elmira's SHU, and
approximately nine years and two months at Southport.
Putting aside these discrepancies, the Amended Complaint
alleges that Plaintiff suffered cruel and unusual punishment
while in SHU. For example, the pleading states that
Plaintiffs time in SHU, during which he was locked into
his cell for 23 hours per day, resulted in "serious physical
injuries - blindness, pains and walking problems.” The
pleading attributes these problems to "isolation and limitation
of physical movement.” The pleading further states that
Plaintiffs time in SHU "traumatized” him psychologically,
resulting'in bad dreams. The pleading also states that during
Plaintiffs time in SHU, he experienced "further restrictions
and deprivation of personal properties and body care items
for personal hygiene, and [letters and photos from family and
friends and daily meals. ,.25
*6 The Amended Complaint asserts that defendant Glenn
Goord (“Goord”), the former Commissioner of DOCCS,
was personally involved in' the alleged constitutional
violation since he was DOCCS Commissioner during the
relevant time and therefore had responsibility for the
“overall, administration” of DOCCS including the review
of disciplinary appeals. The Amended Complaint further
asserts that Goord "reviewed and affirmed” Plaintiffs 10year SHU sentence. The Amended Complaint asserted that
defendant Donald Selsky (“Selsky”), the former director
of DOCCS SHU Program, was personally involved in
the alleged constitutional violation since he was the
director of DOCCS SHU program during the relevant
time and therefore was responsible for the “overall dailyadministration of SHU.” The Amended Complaint also
asserts that Selsky “re-viewed” and “re-affirmed” Plaintiffs

WSSTLAW © 2021 Thomson Reuters. No claim to original U.S. GcvsrrfjieEDvjpjkg

Encarnacion v. Goord, Slip Copy (2020)

10-year SHU sentence. The Amended Complaint alleges
that defendant Michael McGinnis (.‘‘McGinnis*’), the former
Superintendent at Southport, was personally involved in
the alleged constitutional violation since he had been the
Superintendent at Southport Correctional Facility during the
relevant time and had been “charged with overall supervision
and administration of Southport,” including the continuation
of Plaintiffs confinement in SHU. The pleading further
asserts that Goord, Selsky and McGinnis have personal
involvement in the alleged constitutional violation since
Plaintiff spoke to each of them, at various unspecified
“multiple times” while they were making “rounds” of the
facility, and asked them to release him from SHU. 26
The Amended Complaint asserts that defendant David
Rock (“Rock”) was personally involved in the alleged
constitutional violation since he had been the Superintendent
at Great Meadow at the relevant time and had been
responsible for the “overall supervision and administration
of’ Great Meadow.
The Amended Complaint contends that Plaintiff exhausted his
administrative remedies before commencing this action, as
required by 42 U.S.C. § 1997e(a). In that regard, the pleading
contends that on “January [17], 2009” Plaintiff filed an
inmate grievance “challenging the violation of his Eighth and
Fourteenth rights” [sic], but that such grievance was "never
decided, either granted or denied.” The pleading asserts that
subsequently, on September 4, 2009, Plaintiff filed another
inmate grievance, challenging the failure to decide his earlier
grievance'. The Amended Complaint states that the second
grievance was denied, and that Plaintiff appealed that denial
to the Central Office Review Committee.
Purportedly, as evidence that Plaintiff exhausted his
administrative remedies in the manner just described, the
pleading refers to “Exhibits E and F” to the Amended
Complaint. However, Exhibit E to the Amended Complaint is
not an inmate grievance at all, let alone an inmate grievance
concerning the conditions of confinement in SHU. Rather,
Exhibit E is an appeal, dated March 9, 1998, from the Tier III
disciplinary- hearing determination that resulted in Plaintiffs
1.0-year SHU sentence. The appeal argued that Plaintiffs
due process rights'were violated at that hearing, but that
issue is not part of this action. Indeed, Plaintiff has fully but
unsuccessfully litigated any issues related to that, disciplinary
hearing in other proceedings.

complaining about the conditions of confinement in SHU.
Rather, the documents relate to an inmate grievance that
Plaintiff filed in which he claimed to be owed “back wages”
lost during, his time in SHU'. More specifically, the exhibit
indicates that on January 17, 2009. after Plaintiff had been
transferred from-Southport-to Great Meadow, he filed an
Inmate Claim Form, not a grievance form, stating:

On 2-17-98, 1 was placed in Special
Housing Unit (SHU) illegally and the
lost [loss] of wages in the amounts of
$5,148.00 for the eleven (II) [years]
or 468 weeks of lost wages of $450
per week or more as I was a Grade
£5_> at the time of I was placed
in SHU illegally after been issued
two misbehavior reports for the same
incident of 8-10-96 at the Auburn Corr.
Fac. On 8-10-96 at Auburn C.F. I was
involved in a fist fight with another
inmate Daniel Roberts. On 8-11-96
I was served with valid misbehavior
report dated 8-10-96 charged with
prison rules: 100,13- fighting, 100.10 —
assault on inmate, 113.10- contraband
weapon. It was dismissed at the start of
the disciplinary hearing. On 2-18-98 1
was served with a second misbehavior
[report] for the same 8-10-96 incident
and placed in SHU for 10 years in
violation of the 5 Ct.App.Div Laws
in Howard v. Coughlin, 212 A.D.2d
352, 622 N.Y.S.2d 134 (1995). 1
also claim $589,9200 [sic] equally
.5150.00 for each days- (3928) of
mental and physical pain. See attached
. Exhbit # 1, 2-3 . [Those exhibits are
the misbehavior reports and hearing
disposition form relating to Plaintiffs
10-year SHU sentence] $5148.00 for
lost of wages 11 years, 468 weeks
grade 5 wages. $589,9,200.002 [sic]
150 per days 3928 for mental and
physical pain + distress for the illegal
SHU for 11 years. 27

Exhibit F to the Amended Complaint is a series of documents
relating to an inmate grievance, but not a grievance

nw&ihxK ■'& 6

WESTLAW £> 2021 Thomsen Reuters, No claim to original U.S. Govern

Encarnacion v. Goord, Slip Copy (2020)

*7 On January 31, 2009, Corrections Captain £. Carpenter
denied the claim, stating: “This is not a lost property claim.
Misbehavior reports indicate your admission to SHU. Loss of
Grade 5 program when you were in SHUT On April 28.2010,
the Central Office Review Committee (“CORC”) affirmed the
denial, stating in pertinent part:

[T]he grievant was found guilty
of' the 8/10/96 incident at his
Tier III hearing on 2/25/98.
Disciplinary sanctions were imposed,
which included confinement to SHU
beginning 2/17/98, the date the
grievant was convicted at a jury trial.
His subsequent appeal was affirmed on
5/5/98. With respect to the grievant’s
appeal, CORC asserts that the grievant
is not entitled to back pay dating back
to 2/17/98.

ECF No. 16 at p. 60.28
As will be discussed further below, the claim/grievance just
discussed is significant to the Court since it indicates that as
of the date it was written, January 17, 2009, the “11 year
SHU sentence” to which Plaintiff referred therein, and to
which he repeatedly refers in this action, had already ended.
In that regard, when Plaintiff wrote the claim/grievance, he
was at Great Meadow, serving a keeplock sentence, after
having completed his SHU sentence at Southport, and was
demanding compensation for what he claimed to be an
already-completed 11 -year period of SHU confinement.
In any event, returning to the procedural history of this
action, on August 20, 2015, this Court (Larimer, J.) issued a
Decision and Order (ECF No. 18) dismissing the Amended
Complaint with prejudice pursuant to 28 U.S.C. § § 1915(e)
(2)(B) and 1915(A), The Decision and Order indicated that
the allegations in the Amended Complaint were too vague and
conclusory to state actionable 8 t!l Amendment claims.
Plaintiff again appealed, and on October 7, 2016, the Second
Circuit vacated the dismissal in part and remanded the action
back to this Court. The Second Circuit affirmed the dismissal
with regard to Plaintiffs so-called “double jeopardy” claim
relating to the Tier III disciplinary hearing that resulted in his

10-year SHU sentence.29 However, the Circuit Court vacated
the dismissal of the 8rl1 Amendment claim, characterizing
it as a claim that Plaintiff was "denied hygiene products
and food." That characterization was evidently based on a
paragraph 27 of the Amended Complaint, in which Plaintiff
vaguely stated:

27. His original 10-year SHU sentence
has been extended as well as . '
further, restrictions and deprivation
• of personal properties and body
care items for persona! hygiene, and
family’s and friends’ letters and photos
and daily meals.j0

Nevertheless, the Circuit Panel held:
Upon review, we conclude that the district erred in
dismissing Encarnacion’s amended complaint sua spcmte
because it did not' consider the overall conditions of
confinement of his SHU sentence. In particular, the District
Court failed to consider the relevance of Encarnacion's 11year confinement in SHU. Moreover, Encarnacion alleged
that he was deprived of hygiene products and “daily
.meals” while in SHU. The. district court also should
have considered those allegations as part of the overall
conditions of his SHU confinement. See Walker v: Schult,
717 F.3d 119, 127 (2d Cir. 2013) (“[T]he failure to provide
prisoners with toiletries and other hygienic materials mav
rise to the level of a constitutional violation.”); Robles
v. Coughlin, 725 F.2d 12. 16 (2d Cir. 1983) (“[lender
certain circumstances a substantial deprivation of food may
well be recognized as being of constitutional dimension.”).
Finally, we cannot “discern from the district court's
analysis whether it adequately considered the possibility
that [the alleged violation] offends contemporary' standards
of decency," Harris v. Miller, 818 F.3d49, 65 (2d Cir,
2016).
*8 Mandate, ECF No. 22.
Upon remand, this Court permitted the action to go
forward and directed service on Defendants. Subsequently,
Defendants appeared and answered, and the parties conducted
discovery.

WESTLAW «£) 2021 Thomson Reuters. No clam to cnginal U.S. Govsr^ep\p^*^

M

Encarnacion v. Goord, Slip Copy (2020)

On February 26, 2018. Plaintiff submitted papers (ECF No.
42) in opposition to Defendants’ motion to transfer venue to
the Northern District of New York, The Court mentions this
because in Plaintiffs opposition to that motion he asserted that
the "11 year SHU sentence” about which he is complaining
had been served at Elmira and Southport, in the Western
District of New York, and not a Great Meadow, located in the
Northern District of New York:
[Tjhis matter is property] venued in the Western District
because Southport Correctional Facility (“Southport”) is
where the constitutional rights were violated and by
DOCCS employees at the Southport Corr. Fac.

***
Furthermore, Elmira Correctional Facility (“Elmira”) was
the place where the sanctions [were] made .in 1998, and
Southport was the place where Plaintiff has been confined
23-24 hours a day daily in solitary for more than 11 straight
consecutive years[.J
ECF No. 42 at p. 3. Later, in that same document. Plaintiff
reiterated that any constitutional violations had occurred at
either Elmira or Southport. Plaintiff did not assert that any
constitutional violation had occurred at Great Meadow.
On August 24,12018, Defendants deposed Plaintiff. 31
When Plaintiff was asked about the “deprivations'” that he
mentioned in the Amended Complaint, he. stated that he was
referring to disciplinary sanctions that were imposed on him
at various times while he was in SHU:

deprived of personal hygiene items such as toothpaste, soap
and clean clothing. When asked when those incidents had
occurred, Plaintiff stated that it was whenever he received
a disciplinary "ticket” and was moved to "Level One.”32
Plaintiff also stated that when he was deprived of meals. .
it was pursuant to a restricted diet order issued following
a hearing, though he could not recall any specific occasion
when he was deprived of meals. 33. Plaintiff also could not
recall how many times he was allegedly denied meals. 34The
reasonable inference from Plaintiffs statements is that on the
occasions he suffered the alleged “deprivations,” they were
the result of "deprivation orders” and “restricted diet orders.”
See. generally, Trammell v. Keane, 338 F.3d 155 (2d Cir.
2003). Notably, Plaintiff testified that these "deprivations"
occurred at Southport and Elmira: “Q. Now. which facilities
were you housed at, when you were deprived of the items for
personal hygiene? A. Elmira and Southport. n 35
*9 At his deposition (and contrary to what he stated in
. the Amended Complaint), Plaintiff asserted that he had
filed "very many” inmate grievances concerning the matters
involved in this lawsuit, 36 though he could not say howmany 37 and had no copies of any grievance, and could not
say anything specific about what the grievances supposedlystated: “Q. Mr. Encarnacion, these answers are extremely
vague. Do you-do you have a memory .of what you grieved?
A. No.” (ECF No. 88 at p. 47). When Plaintiff was asked
if any of the alleged grievances involved the “deprivations”
that he mentioned in the Amended Complaint, he responded,
“It’s possible,” though he admitted he could not “remember
grieving any specific deprivations.”38 He also admitted that
'he could not remember filing a grievance concerning "the

Many times food, how many times
they would give me a ticket and they
would move me to level one. They
wouldn’t give me food for three days.
They wouldn't let me bathe. They,
wouldn’t'let me go out into the yard.
Not being able to bathe or use the
bathroom....A ton of things more. 1 '
explained all of these things to you. in
an affidavit.

length of [his] SHU time.” 3<)
Plaintiff, who claims to be unable to speak English (despite
numerous notations in the record by DOCCS staff indicating
that he can), testified at the deposition in a manner suggesting
that on multiple occasions during his time in SHU he had
discussed the conditions of his confinement with defendants
Goord and Selsky, via an interpreter, when they made rounds
of the SHU. 40 However, under further questioning, Plaintiff
admitted that he could not remember the. particulars of
any such conversations.41 Plaintiff stated'that he believed

ECF No. 88 at p. 29..(emphasis added) (The affidavit to which
Plaintiff refers is evidently ECF No. 78, which the Court will
discuss further below.) Plaintiff also indicated that he was

WEST LAW

he did complain to Goord about the length of his SHU
sentence, since he recalled asking Goord to allow him to
return to general population.42 Similarly, Plaintiff testified
that he spoke directly with McGinnis and Rock several

BfPzBh'zx

© 2021 Thomson Reuters No d3;m to origin^! U.S. Gove.

B?

Encarnacion v. Goord, Slip Copy (2020)

times, but be could not provide a physical description
of either defendant, nor could he remember saying any
specific thing to them, 43 Plaintiff also testified that he
sent letters to the Defendants, but could not provide anv
specifics about those alleged communications. Indeed, when
questioned extensively about the number, contents, and dates
of his alleged direct communications with. Goord, Selsky,
McGinnis and Rock, Plaintiff consistently responded, “I don’t
remember."
On January 18, 2019, Defendants filed subject motion for
summary judgment (ECF No. 87). At that time, Defendants
gave the requisite Irby notice to the pro se Plaintiff that is
required by Rule 56(b) of the Local Rules of Civil Procedure.
Primarily, Defendants contend that they are entitled to
summary judgment because Plaintiffs claim is barred by
Section 1983’s 3-year statute of limitations: “Plaintiff filed
this lawsuit in March 2012, more than three-years after
leaving SHU, and, as a result, ali of his claims are untimely.
It is a global infirmity and the case must be dismissed.”
Alternatively, Defendants maintain that they are entitled
to summary' judgment because Plaintiff failed to exhaust
his administrative remedies before commencing this action;
because Plaintiff cannot demonstrate that Defendants were
personally involved in the alleged violation; because Plaintiff
cannot, demonstrate that a constitutional violation occurred;
and because Defendants would be' entitled to qualified
immunity'.
In support of their statute-of-limitations argument,
Defendants contend that Plaintiff was released from SHU
"on August 16, 2008.” For the reasons discussed above, the
Court believes that assertion is incorrect, and that Plaintiff
was actually released from SHU three months later than
that, in November 2008. At least, that is when Plaintiff was •
transferred out of Southport which, as far as the Court is
aware, is an all-SHU facility. See, e g., Ruggiero v. Fischer,
807 F. App’x 70. 73 (2d Cir. 2020) (“Southport is an entirely
SHU facility.”). However, that discrepancy does not affect the
legal force of Defendants” argument, since this action was still
commenced more than three years after November 2008.
*10 As for their contention that Plaintiff failed to exhaust
administrative remedies, Defendants state:

Plaintiffs testimony on his grievances
is telling. As was [a] pattern for
Mr. Encarnacion, he cannot remember

filing any specific grievance but
testifies that he' would always file
grievances “right away." Though
he cannot testify to and has no
evidence of filed grievances on any
of the allegations in this case,
his best possible testimony is that
"it’s possible” he filed grievances
pertaining to this case. As detailed
in Mr.- Encarnacion’s CORC report,
there is no indication that ..he ever .
grieved any of these issues through the .
administrative processes available to
him. Although he provides a CORC
report as an exhibit to his Complaint,
that grievance concerns and is titled
“Back Wages” and is unrelated to any
allegation concerning this case. [Dkt.
16-1] at 41. Here, despite Plaintiffs
claims of appeal - without a final
determination from CORC - the court
should find that Plaintiff failed to
exhaust his administrative remedies.

Defs.’ Mem. of Law, ECF No. 87-1 at p. 16. In support of .
this argument, Defendants have submitted an affidavit from
Rachael Sequin (“Sequin”), Assistant Director of DOCC's
Inmate Grievance Program and custodian of the records of
CORC, stating in pertinent part that according to CORC’s
records, Plaintiff "never appealed any grievance to CORC
relating to his SHU confinement sentence or conditions”
relating to the period encompassed by this action. 44
R-egai'ding their contention that Plaintiff cannot show thar
any of the four defendants was personally involved in the
•alleged constitutional violation, Defendants point out that
Plaintiff offers only seemingly implausible assertions that,
on some unspecified occasions during his years in SHU, he
personally spoke, through unspecified interpreters, to Goord,
Selsky and McGinnis as they were making “rounds” at
Southport. Goord, Selsky and McGinnis, meanwhile, contend
that they cannot ever recall speaking to Plaintiff, and that
it would have been unusual, and therefore memorable, for
an SHU inmate to have spoken to them using an interpreter,
as Plaintiff claims happened. In any event. Defendants point
out that Plaintiff cannot recall exactly what he might have
said to Goord, Selsky or McGinnis on these occasions. 45
See, e.g, Defs.’ Mem. of Law, ECF No. 87-1 at p. 9

Wpmisxx B %

WE3TLAW (';) 2021 "Thomson Reotem No maim to Dogma! U S. Gcvams

Encarnacion v. Goord, Slip Copy (2020)

("Plaintiff testifies that he spoke with Commissioner Goord
when he did rounds but that he doesn’t remember talking
to him about the alleged “deprivations.”...Plaintiff is unable
to recall anything specific about these conversations.”); id.
("Plaintiff, again, fails to be able to recall any specifics of
any conversation with Defendant Seisky. Although Plaintiff
claims to have written to Director Seisky, he cannot recall
anything about those written communications.”); id . at p.
10 (“As to Superintendent McGinnis, Plaintiff testifies that
he cannot remember the number of conversations he had.
the content of those conversations, anything that he said
to McGinnis or anything that McGinnis said to him or
McGinnis’ physical appearance. Plaintiff again testifies to
alleged written communication to McGinnis[, but] recalls
nothing of the alleged letters or’Complaints

.

*11 Defendants likewise point out that Plaintiff cannot
recall the content of any communications that he might
have had with defendant Rock at Great Meadow and, in
any event, as noted earlier. Plaintiff stated in opposition to
Defendants’ motion to transfer venue that the constitutional
violations about which he is complaining in this action
occurred at Elmira and Southport, not Great Meadow where
Rock was the Superintendent. See, Defs.’ Mem. of Law,
ECF No. 87-1 at p. 10 (“Lastly, as to Superintendent Rock,
and perhaps most tellingly, Plaintiff testifies that although
he cannot recall any information now, he might recall it
later. Similar to the testimony about all other Defendants.
Plaintiff provides no specific information.”). Defendants have
submitted affidavits from Goord, Seisky, McGinnis and Rock
indicating that they have no recollection of ever having
personally received or reviewed any written correspondence
from Plaintiff concerning the matters about which Plaintiff is
complaining herein, and that there is no evidence that thev
did.
Regarding the merits of Plaintiffs 8 th Amendment claim,
Defendants contend that discovery has not provided any
support for Plaintiff:
In addition to the length of his SHU sentence, Plaintiff also
claims deprivations of “daily meals” and hygiene products
during his SHU sentence. Although Plaintiff is unable to
identify any specific date on which any deprivation took
place, all of the alleged deprivations occurred prior to' his
release from SHU[.]

***

Long periods spent in isolation do not constitute cruel
and unusual punishment, SHU confinement is a common
punishment within state prisons, and the regular conditions
of SHU confinement do not violate the Eighth Amendment.
Dixon v. Goord, 224 F.Supp.2d 739, 748 (S.D.N.Y. 2002),
Numerous cases in this circuit have upheld long SHU
sentences that were challenged merely for the amount of
time prisoners were held in segregation. See e.g., Sostre
v’McGinnis, 442 F.2d 178, 193 (2d Cir. 1971); Gulley
v. Roach, 2004 WL 2331922 (W.D.N.V Oct. 15, 2004)
(duration of Plaintiffs confinement alone, does not rise
to the level of a constitutional violation). As a result.
Plaintiffs Complaint fails to plead a claim of constitutional
significance under the Eighth Amendment.

***
Plaintiffs deposition aiso establishes that Plaintiff can
bring forward no facts to assist his allegations of
"deprivations” during his SHU confinement. Plaintiff
cannot remember any specific instance in which he
was deprived of anything but testifies to generalized
deprivations pursuant to a “policy" that was never
communicated to him nor written down. Plaintiff fails
to identify any of the officers allegedly involved and is
unwilling.to testify to any specifics as it relates to. the
number of times or dates on which these deprivations took
place.

Plaintiff alleges certain deprivations but gives no specifics
as to the nature of those deprivations, the effects of
those deprivations, nor the dates/times/officers allegedly
involved. Even assuming all of Plaintiffs vague allegations
were true, Plaintiff cannot demonstrate that the actions
he complains of were "sufficiently serious" to constitute
cruel and unusual punishment and that defendants' actions
amounted to "deliberate indifference." Farmer v. Brennan,
511 U.S. 825, 834 (1994).
Defs.’ Mem. of Law, ECF No.87-1 at pp. 4-6. Defendants
further indicate that it is sometimes necessary to impose
lengthy SHU sentences on inmates, such as Plaintiff, who
commit serious crimes which already incarcerated, and that
they are unaware of any binding case authority indicating
that that a ten- or eleven-year SHU sentence violates the 8th
Amendment.

Wf%NhJiX S ef

-VVESTLAW €) 2021 Thomson Reuters. No claim to original U.S. Govern?/

Encarnacion v. Goord, Slip Copy (2020)

On February 27, 2019, Plaintiff filed a 223-page response 46
to the summary judgment motion. (ECF No. 89). The
Court observes that Plaintiff devotes a large amount of his
submission to arguing that he is innocent of the murder which
resulted in his lengthy SHU sentence, even though that issue
is not part of this action. Plaintiff also attempts to re-argue
his “double jeopardy” claim even though that claim was
dismissed from this action long ago. Plaintiff also devotes
much argument to refuting Defendants’ claim that he can
speak English, though that issue is irrelevant to the resolution
of this.
*12 Next, Plaintiff contends that the Court should recuse
itself from this action, since the undersigned previously ruled
against him in another action, Encarnacion v McGinnis. 02CV-6380, while supposedly lacking jurisdiction to do so, and
dismissed his double jeopardy claim in this action.
With regard to Defendants’ motion, Plaintiff contends that the
Court should deny the application insofar as it is based on
lack of personal involvement, since Plaintiff claims he sent
letters to Defendants (even though he cannot say what was
contained in those letters) and Defendants cannot definitively
state that they never received them. Plaintiff also contends
that Defendants should be deemed to have been personally
involved since they held high positions of authority.
Plaintiff states that he exhausted unspecified grievances
concerning his conditions of confinement while in SHU, and
that insofar as CORC's records fail to reflect that fact it must
be because CORC employees destroyed the records.
Plaintiff also states that when he was transferred to Great
Meadow, defendant Rock ordered that he be placed in Great
Meadow's SHU from “11/18/08 to 3/11/09” even though
he had committed no disciplinary infraction, though that
allegation is not contained in the Amended Complaint and
there is no evidence of it in the record.
Plaintiff's response does not address Defendants’ arguments
concerning the statute of limitations, except indirectly, insofar
as it maintains that Plaintiff remained in SHU, at Great
Meadow, until March 11,2009.
In addition to Plaintiffs opposition (ECF No. 89), the Court
has also considered the sworn statement that he submitted
in opposition to Defendants’ earlier motion to dismiss. (See,
ECF Nos 78, 89-2 at pp. 3-10). In that affidavit, Plaintiff
states, inter alia, that his claim in this action is that he
suffered constitutional violations during an “eleven year”

period of confinement in SHU, related to an incident at
Auburn Correctional Facility on August 10, 1996, and that
those eleven years were spent at Southport and Elmira.
See. e.g., ECF 89-2 at p. 7 ("Defendants illegally placed
Plaintiff for a second rime in SHU 23-24 hours a day of
solitary confined daily for more than 11 years for one incident
dated August 10, 1996 at Auburn.”); see also, id. at p.
9 (“Plaintiff was in Elmira and Southport SHU for more
than II years”). Plaintiffs affidavit also reiterates that the
alleged unconstitutional "deprivations” occurred at- Elmira
and Southport, between “February 17, 1998 and November
18,2008. „ 47 The affidavit, signed in 2018, does not mention
Great Meadow.
Further, the Court has considered the affidavit, mentioned
earlier, that Plaintiff filed in opposition to Defendants’ Motion
to Transfer Venue. On February 26, 2018, Plaintiff submitted
papers (ECF No. 42) in opposition to Defendants’ motion
to transfer venue to the Northern District of New York. As
stated earlier, in the. affidavit Plaintiff asserted that the “1.1
year SHU sentence” about which he is complaining had been
served at Elmira and Southport, in the Western District of
New York, and not a Great Meadow, located in the Northern
District of New York. Later in that same document, Plaintiff
reiterated that any constitutional violations had occurred at
.either Elmira or Southport. The submission did not assert that
any constitutional violation had occurred at Great Meadow.
*13 On March 13, 2019, Defendants filed a Reply (ECF
No. 90). In it, Defendants preliminarily point out that Plaintiff
failed to file a counter-statement of facts, and argue that
the Court should therefore accept that facts as stated in
Defendants’ Statement of Facts. Next, Defendants point
out that the majority of Plaintiffs opposition pertains to
matters that are not presently before the Court. Defendants
further contend that Plaintiffs contention, that CORC deleted
records of Plaintiffs administrative appeals, is implausible
and unsubstantiated. Defendants also maintain that Plaintiffs
recusal motion is baseless.
The Court has considered the parties’ submissions and the
entire record.
DISCUSSION
Plaintiffs Pro Se Slants
Because Plaintiff is proceeding pro se, the Court has
construed his submissions liberally, "to raise the strongest
arguments that they suggest.” Burgos v. Hopkins, 14 F.3d 787, .

WESTLAW £)2021 Thomson Refers No r.l.ian to original U.S Covet

Encarnacion v. Goord, Slip Copy (2020)

790 {2d Cir. 1994).48 In this regard, as noted earlier the Court
has not only considered Plaintiffs response to Defendants’
summary judgment motion, but has considered the entire
record, including affidavits that he previously submitted in
this action, when considering whether he has shown that
there are triable issues of material fact precluding a grant of
summary judgment.
Motion to Recuse
As part of his response to Defendants’ motion for summary
judgment, Plaintiff contends that the Court should recuse
itself from this action. Plaintiff maintains that the Court must
recuse itself for two reasons: First, because it ruied against
him in an earlier proceeding, Encarnacion v McGinnis, 02CV-6380, while lacking jurisdiction; and, second, because it
dismissed his double jeopardy claim in this action. The latter
objection is easily disposed of, since it was Judge Larimer, not
the undersigned, who dismissed Plaintiff’s double jeopardy
claim from this action.49 See, ECF No. 18. As for the former
objection, while the Court has no memory of the action to
which Plaintiff refers, it can see from the docket that on
October 27, 2005, it dismissed a habeas petition, pursuant
to 28 U.S.C. § 2254, in which Plaintiff challenged the Tier
III disciplinary conviction that resulted in his 10-year SHU
sentence. See, 6:02-CV-6380 CJS, Encarnacion v. McGinnis.,
ECF No. 7. The Court dismissed the petition after finding
that Plaintiffs double jeopardy and due process claims lacked
merit. Plaintiff appealed but the Second Circuit dismissed the
appeal. The Court sees no indication that it lacked jurisdiction
over the matter, contrary to what Plaintiff now claims. In any
event, the fact that the Court previously made a ruling adverse
to Plaintiff is not a sufficient basis to grant his recusal motion.
See, Chen v. Chen Qualified Settlement Fund, 552 F.3d 218,
227 (2d Cir. 2009) (“Generally, claims ofjudicia! bias must be
based on extrajudicial matters, and adverse rulings, without
more, will rarely suffice to provide a reasonable basis for
questioning a judge’s impartiality.”). Accordingly, Plaintiff’s
motion for recusal is denied and the Court will proceed to
consider Defendants’ summary judgment motion.

The burden ‘ then shifts to the non-moving party to
demonstrate “specific facts showing that there is a genuine
issue for .trial.” Anderson v. Liberty Lobby. Inc., All U.S.
242, 250, 106 S.Ct. 2505, 91 L.Ed.2d 202 (1986). To do
this, the non-moving party must present evidence sufficient
to support a jury verdict in its favor. Anderson, All U.S. at
249. The underlying facts contained in affidavits, attached
exhibits, and depositions, must be viewed in the light most
favorable to the non-moving party. U.S. v. Dieboki, Inc.,
369 U.S. 654, 655, 82 S.Ct. 993, 8 L.Ed.2d 176 (1962).
Summary judgment is appropriate only where, “after drawing
all reasonable inferences in favor of the party against whom
summary judgment is sought, no reasonable trier of fact could
find in favor of the non-moving party,” Leon v: M.urphv, x)%%
F.2d 303, 308 (2d Cir. 1993).
Section 1)81
Section 1983 "is not itself a source of a substantive
rights, but merely provides a method for vindication of
federal rights elsewhere conferred.” Long v. Crowley, No.
09BCVB00456A(F), 2012 WL 1202181 (W.D.N.Y. Mar. 22,
2012) (citations and internal quotation marks omitted). To
establish individual liability under Section 1983, a plaintiff
must show that the defendant acted under color of state law
and caused the plaintiff to be deprived of a constitutional
right. 42 U.S.C. § 1983.
8 ~ Amendment SHU Claim

Rule 56
*14 Defendants have' moved for summary judgment
. pursuant to Fed. R. Civ. P. 56. Summary judgment may not
be granted unless "the movant shows that there is no genuine
dispute as to any material fact and the movant is entitled to
judgment as a matter of law.” Fed.R.Civ.P. 56(a). A party
seeking summary judgment bears the burden of establishing
that no genuine issue of material fact exists. See Adickes v.

WcSTlAW

S.H. Kress & Co., 398 U.S.. 144, 157, 90 S.Ct. 1598, 26
L.Ed.2d 142 (1970). "[T]he movant must make a priniafacie
showing that the standard for obtaining summary judgment
has been satisfied.” ! 1 MOORE'S FEDERAL PRACTICE,
§ 56.1 l[l][a] (Matthew Bender 3d ed.). “in moving for
summary judgment against a party who will bear the ultimate
burden of proof at trial, the movant may satisfy this burden
by pointing to an absence of evidence to support an essential
element of the nonmoving party’s claim.” Gumma Village
of Depew, 15 F.3d 98, 107 (2d Cir. 1996) (citing Cetoiex Carp.
v. Catreti, 477 U.S. 317, 322- 23, 106 S.Ct. 2548,91 L.Ed.2d
265 (1986)), cert denied, 517 U.S. 1190 (1996).

Plaintiff alleges that his long confinement in SHU constituted
cruel and unusual punishment in violation of the 8 th
Amendment. Regarding such a claim generally, the Second
Circuit has stated:

2021 Thomson Reuters, No claim to original U.S. Goverr

E ''II

Encarnacion v. Goord, Slip Copy (2020)

Confinement in a prison or in
an isolation cell is a form of
punishment subject to scrutiny under
Eighth Amendment standards. In order
to establish an Eighth Amendment
violation, an inmate must show (i)
a deprivation ' that is objectively,
sufficiently serious that he was denied
the minimal civilized measure of
life's necessities, and (2) a sufficiently
culpable state of mind on the part
of the defendant official. Although
it is perfectly obvious that every
decision to remove a particular inmate
from the general prison population
for an indeterminate period could
not be characterized as cruel and
unusual, it is equally plain that
the length of confinement cannot
be ignored in deciding whether the
overall conditions of confinement
meet constitutional standards. In
other words, whether incarceration
in the SHU violates the Eighth
Amendment...depends on the duration
and conditions of the confinement. An
Eighth Amendment claim predicated
on SHU confinement therefore
typically accrues only after an inmate
has been confined in the SHU for a
prolonged period of time.

Gonzalez v. Hasty, 802 F.3d 212, 224 (2d Cir. 2015) (citations
and internal quotation marks omitted).
Statute of Limitations
*15 Plaintiffs Section 1983 claim is subject to a three-year
statute of limitations. Cottov. City of New York; No. 17-2845.
2020 WL 1228765 (2d Cir. Mar. 13, 2020) ("Section 1983
actions filed in New York are...subject to a three-year statute
of limitations.” Hogan v. Fischer, 738 F.3d 509, 51 7 (2d Cir.
2013)). As mentioned earlier, Plaintiffs opposition papers
do not directly address Defendants’ statute of limitations
argument. Nevertheless, because Plaintiff is proceeding pro
se, the Court has saa sponie considered whether equitable

tolling might apply to extend the limitations period., but sees
nothing in the record to suggest that equitable tolling should
apply here.5(J
>
As mentioned earlier. Plaintiff commenced this action on
March 8, 2012. Three years prior to that date was March 8,
2009. On March 8, 2009. Plaintiff was at Great Meadow,
and was three days away from completing his keepiock
disciplinary sentences.31 Plaintiff asserts, in conclusory
fashion, that he actually was in SHU at Great Meadow,
not keepiock. However, the record shows otherwise. In that
. regard, as noted earlier, the unrefuted records from DOCCS
show that Plaintiffs SHU sentence ended in November 2008,
at. which time he was transferred from Southport to Great
Meadow-, where he was to serve his keepiock sentences.
Moreover, the claim that Plaintiff filed in January 2009,
demanding back wages lost while in SHU, indicates that
Plaintiffs SHU sentence had already ended. (Am. Compl.,1 •
Exhibit F). In that regard, the whole point of Plaintiffs
claim was that he was seeking compensation (back wages)
lost during his already-completed SHU sentence, which,
he maintained, had lasted for “11 years, [or] 468 weeks.”
Plaintiff would not have been able to say that his SHU
sentence had lasted for “11 years or 468 weeks” unless it
had already ended. Similarly, the response denying that claim
indicated that Plaintiffs SHU sentence had already ended,
since it referred to his SHU sentence in the past tense,
stating: ‘•“This is not a lost property claim. Misbehavior
reports indicate your admission to SHU. Loss of Grade 5
program when you were in SHU.” In sum, despite Plaintiffs
unsubstantiated statement that his SHU sentence continued
after he was transferred to Great Meadow, the record indicates
that his SHU sentence ended in November 2008, which was
more than three years before he commenced this action.
Consequently, Plaintiffs 8 ^ Amendment claim, based on his
confinement in SHU, is time barred, and Defendants should
be granted summary judgment.
*16 However, in the event that a reviewing court might
disagree with the Conn's finding in that regard, the Court will
continue and assume, for the sake of argument, that Plaintiff
was actually in SHU at Great Meadow, and not keepiock, as
he maintains. In particular, the Court will, in the alternative,
accept as true Plaintiffs contention that he was placed in
SHU upon his arrival at Great Meadow in November 2008
and remained there until March 11, 2009. If that were true,
then Plaintiff would still have been in SHU within the 3-year
limitations period.

WESTIAW €') 2021 Thomson Reuters, Nc ciaim to original U.S. Cover

Encarnacion v. Goord, Slip Copy (2020)

However,, the Court need not and does not accept Plaintiffs
oft-repeated but unsupported assertion that all of the SHU
time he served between February. 1998 and March 2009
was related to the “same incident," namely the incident at
Auburn on August 10, 1996. Rather, as discussed earlier, the
record is undisputed that any keeplock/SHU time that Plaintiff
served at Great Meadow was due to disciplinary infractions
committed while he was already serving his SHU sentence! In
particular. Plaintiff served his SHU sentences for homicide,
promoting contraband and assaulting his attorney, at Elmira
and Southport, and once those sentences were completed,
he was transferred to Great Meadow to serve his remaining
much-shorter keeplock sentences.
Since the disciplinary sentences that Plaintiff served at Great
Meadow are so clearly unrelated factually to the sentences
that he served at Elmira and Southport, and even though
Plaintiff has not made any arguments to this effect, the
Court assumes that Plaintiff is claiming otherwise for reasons
related to the statute of limitations. That is, it seems that in
claiming that he spent time in SHU. at Great Meadow within
the three-year limitations period, Plaintiff is attempting to
assert a type of “continuing violation" claim in order to Have
any claims arising at Elmira and Southport, which would
otherwise be clearly untimely, deemed timely. In other words,
Plaintiff is attempting to aggregate all of his SHU/keeplock
sentences into one "continuing” 8t!l Amendment claim..
In this regard, the legal principles governing the "continuing
violation doctrine," which applies to cases involving Section
1983, area as follows:
The continuing violation doctrine, where applicable;
provides an exception to the normal knew-or-should-haveknown accrual date. It applies to claims composed of
a series of separate acts that collectively constitute one
unlawful practice. The continuing violation doctrine thus
applies not to discrete unlawful acts, even where those
discrete acts are part of a “serial violation,” but to claims
that by their nature accrue only after the plaintiff has been
subjected to some threshold amount of mistreatment.
Accordingly, where the continuing violation doctrine
applies, the limitations period begins to run when the
defendant has engaged in enough activity to make out an
actionable claim. A claim will be timely, however, only if
the plaintiffalleges some non-time-barred acts contributing
to the alleged violation.

The continuing violation doctrine typically arises in
the context of a complaint of unlawful workplace
discrimination challenged under Title Vll of the Civil
Rights Act of 1964, 42 U.S.C. § 2000e et seq.
***
[However, wjhile the doctrine's use is most often
encountered in connection with actions asserting Title Vll
violations, its application is by no means limited to that
context: We have, .for example, applied it to an Eighth
Amendment claim of deliberate indifference to serious
medical needs brought under 42 U.S.C. § 198.3 where the
prisoner challenged a series of acts that together comprised
his claim. We have also applied it to an unlawful takings
claim under section 1983.
/
*17 Gonzalez v. Hasty, 802 F.3d at 220-21 (citations,
footnotes and internal quotation marks omitted).

That the continuing violation doctrine
can apply, however, does not mean it
must. To assert a continuing violationfor statute of limitations purposes,
the plaintiff must allege '.both the.
existence of an ongoing policy of
[unconstitutional conduct] and some
non-time-barred acts taken in the
furtherance, of that policy.

Shomo v. City of New York, 579 F.3d 176, 182 (2d Cir.
2009) (emphasis added; citation and internal quotation marks
oniitted).
Here, to the extent that Plaintiff may be attempting to assert
discrete 8 th Amendment “deprivation" claims, the Court
finds that such claims are not covered by the continuing
violation doctrine and are therefore time barred. In that regard,
as discussed earlier Plaintiff has repeatedly stated that the
“deprivations" occurred at Elmira and Southport, and would
therefore have occurred more than three years before Plaintiff
commenced this action. The record gives no indication that
any similar "deprivations" occurred at Great Meadow, within
the limitations period. To the contrary, Plaintiff implicitly
argued, as part of his opposition to Defendants- motion
to transfer venue, that no such deprivations had occurred
at Great Meadow, in the Northern District of New York.

WESTIAW 0 2021 Thomson Reuters No claim to original U.S GoveriJ^ep

13/3

Encamacion v. Goord, Slip Copy (2020)

Accordingly, insofar as Plaintiff may be attempting to assert
discrete •‘deprivation" claims under the 8 th Amendment,
Defendants are entitled to summary judgment on the
"deprivation” claims based 'on the statute of limitations.
However, the Second Circuit, when remanding the case for
the second time, indicated-that Plaintiffs 8 th Amendment
claim should more properly be viewed as a claim based
on his "overall conditions of confinement,” including the
length of time in SHU and any "deprivations” that may have
occurred. Consequently, the Court finds that the continuing
. violation doctrine could apply to Plaintiffs “overall time
in SHU claim” insofar as it pertains to an alleged “series
of separate acts that collectively constitute one unlawful
practice,” namely, requiring an inmate to spend a continuous
amount of time in SHU that is so long that it has become cruel
and unusual punishment. Moreover, although the discrete
“deprivation” claims are time barred, the deprivations may be
considered when evaluating the "overall time in SHU claim.”
See, Second Circuit Mandate, ECF No. 22 (“[T]he district
erred in dismissing Encarnacion’s amended complaint sua
sponte because it did not consider the overall conditions of
confinement of his SHU sentence. In particular, the District
Court failed to consider the relevance of Encamacion's ! 1■ year confinement in SHU. Moreover, Encamacion alleged
that he was deprived of hygiene products and "daily meals”
while in SHU, The district court also should have considered
those allegations as part of the overall conditions of his SHU
confinement”).
Even assuming, though, thatthe continuing violation doctrine
applies to Plaintiffs SHU claim, that does not mean that his
claims are timely as against each of the defendants. Rather,
“[t]he continuing violation doctrine does not save claims
against a particular defendant where all of that defendant's
alleged acts occurred outside the statute of limitations.”
Marquez v. Annucci, No. 20 CIV. 1974 (AK.H), 2020 WL
3871362, at *3 (S.D.N.Y. July 9, 2020) (citation omitted);
see also, Marshall v. Annucci, No. 16-CV-8622 (NSR), 2018
WL 1449522, at *6 (S.D.N.Y. Mar. 22, 2018) (”[T]he Second
Circuit's decision in Shomo v. City of New York, 579 F.3d
176 (2009), underscores that a court must engage in the
continuing violation analysis as to each individual defendant.
In Shomo, the Second Circuit recognized that the continuing
violation doctrine may apply to prisoners’ Eighth Amendment
.

claims, but nonetheless upheld the district court’s dismissal
of claims against defendants whose last contact with plaintiff
was outside of the statute of limitations period. Id. at 184.").

* 18 In this case, even assuming that the continuing violation
doctrine applies, this action is still untimely as to Goord,
Selsky and McGinnis, since the acts attributed to them all
occurred in connection with Plaintiffs SHU sentences that
were served at Elmira and Southport, outside of the threeyear limitations period. In sum, Goord, Selsky and McGinnis
are entitled to summary judgment pursuant to the statute
of limitations even assuming that the continuing violation
doctrine applies.
The action could be timely as to defendant Rock, assuming
that Rock committed a wrongful act within the limitations
period, that is, prior to March 8, 2009, that was part of
the same “policy” of unconstitutional conduct that allegedly
also occurred at Elmira and Southport. However, the record
contains no evidence of that.
The keeplock/SHU sentences that Plaintiff served at Great
Meadow had nothing to do with either the SHU sentence that
he served for the incident on August 10, 1996. or the SHU
sentence related to assaulting his attorney. Further, there is
no indication that Rock was personally aware that Plaintiff
. had been transferred to Great Meadow.:from Southport or
that Plaintiff had been in SHU for almost eleven consecutive
years before arriving at Great Meadow.52^ Additionally,
the character of Plaintiffs SHU time at'Great Meadow is
different that his SHU time at Elmira and Southport since, for
example, he does not alleged that any “deprivations” occurred
at Great Meadow. Accordingly, there is no indication that
the relatively brief time that Plaintiff spent in keeplock or
SHU at Great Meadow was part of an ongoing “policy” of
unconstitutional confinement directed at him. See, Bailey v.
Colgate-Palmolive Co., No. 99 CJ V. 3228 (CBM), 2003 W'L
21108325, at *9 (S.D.N.Y. May 14, 2003) (“[Ijnasmuch as
plaintiff does not present any evidence which might connect
seemingly episodic occurrences and actions by different
individuals to a controlling policy or practice, he cannot avail
himself of the continuing violation doctrine.’’), affd, 93 F. 321
(2d Cir. 2004). In sum, even assuming that Plaintiff was in
SHU at Great Meadow within three years of him commencing
this action, the continuing violation doctrine does not operate
to make timely the aspect of his claim relating to Southport
and Elmira.
Nor does the record indicate that Plaintiff has any “stand
alone” claim against Rock that would be timely. Although the
record indicates that Plaintiff was confined at Great Meadow,
where Rock was the Superintendent, between November
2008 and March 8, 2009, the Amended Complaint does

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Goverr-

14

Encarnacion v. Goord, Slip Copy (2020)

not allege any actionable conduct or omission by Rock
within that period. Rather, the Amended Complaint contains
only a single assertion of wrongdoing by Rock, which is
the same blanket allegation that it made against the other
three defendants, namely, that Rock “confined [Plaintiff] in
SHU 23 to 24 hours a day in solitary confinement daily
for over of 11-year arose from the same underlying 8/10/96
incident illegally” [sic] Amended Complaint, ECF No. 16 at
p. 5. 53 However, as already discussed, that bald assertion
is indisputably incorrect, since Rock had no involvement
in confining Plaintiff to SHU related to the homicide at
Auburn Correctional Facility- on August 10, 19%. (Nor,
for that matter, did Rock have any involvement in the
disciplinary incidents at Southport that resulted in Plaintiff
receiving additional keeplock sentences; he was merely the
Superintendent of the facility at which Plaintiff ultimately
served those sentences). Nor is there any indication that Rock
committed any other type of constitutional violation against
Plaintiff at Great Meadow on or before March 8, 2009 (or at
any other time).
*19 For all of the foregoing reasons, the Court finds that
Defendants are entitled to. summary judgment based on the
statute of limitations.
Exhaustion of Administrative Remedies
Defendants alternatively maintain that they are entitled
to summary judgment based on Plaintiffs failure to
administratively exhaust his claim before filing,this action.
A prison inmate is required to exhaust his administrative
remedies before asserting a federal claim in federal court
complaining about prison conditions. See, 42 U.S.C.A. §
1997e(a) (“No action shall be brought with respect to prison
conditions under section 1983 of this title, or any other
Federal law. by,a prisoner confined in any jail, prison, or other
correctional facility until such administrative remedies as are
available are exhausted”).
For purposes of 42 U.S.C. § 1997e(a), New York inmates in the custody of DOCCS are required to pursue
their administrative grievances using New York's Inmate
Grievance Program:
As an inmate of the New York' State Department of
Corrections and Community Supervision (“DOCCS”).
Plaintiff was required to submit his grievances through the
New York DOCCS' Inmate Grievance Program ("IGP”).
The IGP has a three-tiered process for adjudicating
complaints: “(1) the prisoner files a grievance with the

Inmate Grievance Resolution Committee (TGRC’), (2) the
prisoner may appeal an adverse decision by the IGRC to
the superintendent of the facility, and (3) the prisoner then
may appeal an adverse decision by the superintendent to
the Central Office Review Committee (;CORC:).” Espinal
v. Goord, 558 F.3d 139, 125 (2d Cir.2009) (citing 7 N.Y.
Comp.Codes R. &. Regs. § 701.7 (1999)).
Dabney v. Pegano, 604 F. App'x'i, 3 (2d C-ir. Feb. 1, 2015).
However, despite this general requirement,

[prisoners
are
exempt
from
the exhaustion requirement when
administrative
remedies
are
unavailable.
An
administrative
procedure is unavailable when (1)
it operates as a simple dead end—
with officers unable or consistently
unwilling to provide any relief to
aggrieved inmates; (2) it is so
opaque that it becomes, practically
speaking, incapable of use; or
(3) prison administrators thwart
inmates from taking advantage
of a grievance process through
machination, misrepresentation, or
intimidation.

Amaker v. Brack, 745 F. App'x 412 (2d Cir. Dec. 19, 2018)
(citations and internal quotation marks omitted).
If administrative remedies were “available” to the inmate
plaintiff, then he must have “properly" exhausted his
remedies-

Proper
exhaustion
demands
compliance with a prison grievance
system's
deadlines
and
other
critical procedural rules because no
adjudicative system can function
effectively without imposing some
orderly structure on the course of its
proceedings.

WESTLAW © 2021 Thomson Reuters. No ciaim to original U S. Gover

flPFmbDZfC

B‘SS

Encarnacion v. Goord, Slip Copy (2020)

Williams v Correction Officer Priatno, 829 F.3d 118. 122 (2d
Cir. 2016) (quoting Woodford v. Ngo, 548 U.S. 81,90*91. 126
S.Ct. 2378 (2006), internal quotation marks omitted).

and that Plaintiff has failed to come forward with evidence
indicating the existence of triable issue of fact on this issue.
Consequently, Defendants are entitled to summary-judgment
based on Plaintiffs failure to exhaust.

Here, for reasons already mentioned earlier the Court
agrees with Defendants that Plaintiff failed to exhaust his

Personal Involvement

administrative remedies as to his 8 th Amendment SHU
conditions of confinement claim. 54 Defendants contend, and
Plaintiff agreed in his Amended Complaint, that the onlygrievance he exhausted that is even remotely connected to
this action is the one he filed in January 2009, seeking back
wages for the time he had spent in SHU at Elmira and
Southport. Although the claim/grievance stated that Plaintiff
was also seeking money damages ($150 per day) for “mental
and physical pains and distress for the illegally SHU for 11
years” [sic], that vague statement, inserted within a claim
expressly designated as being for lost wages, does not amount
to proper exhaustion of the claim being asserted here. See,
Edwards v Melendez, No. 19-753, — Fed.,Appx. — . 2020
WL 6154890, at *2 (2d Cir. Oct. 21, 2020) (“Although
a plaintiff need not specifically articulate his claims in
grievances in the exact same manner that he articulates them
in federal court, he is required to give notice to the defendants
about the factual basis of his claims. See Espinal v. Goord.
558 F.3d 119, 127-28 (2d Cir. 2009); Johnson v. Testinan.3 80
F.3d 691, 697 (2d Cir. 2004)."); see. also, Manger v. Cahill,
792 F. App'x 110,111 (2d Cir. 2020) (“In New York, a specific
defendant need not be named in the grievance to exhaust
administrative remedies. Nevertheless, the grievance should
contain a concise, specific description of the problem,’’)
(citation and internal quotation marks omitted).
*20 As already discussed, during Plaintiffs deposition he
asserted that he had filed other grievances pertaining to the
conditions of his confinement in SHU, but he could provide
no evidence of that and had no recollection of what he had
allegedly stated in those grievances. Further, in response to
the evidence submitted from CORC indicating that Plaintiff
had never exhausted any grievance except the one seeking
lost wages, Plaintiff merely alleges that employees at CORC
must have destroyed the evidence. However, in addition to
being completely unsubstantiated. Plaintiffs assertions on
these points are also contrary to the Amended Complaint,
in which Plaintiff alleged that he had exhausted his SHU
conditions of confinement claim by filing the January 2009
“lost wages” grievance.
In sum, the Court finds that Defendants have made the
required initial showing under Rule 56 relating to exhaustion,

WESTLAW

Defendants alternatively maintain that they are entitled to
summary judgment because Plaintiff cannot show that any of
them was personally involved in the alleged 8th Amendment
violation. To establish liability' against an official under
§ 1983, a plaintiff must allege that individual's personal
involvement in the alleged constitutional violation. See
McKenna v. Wright, 386 F.?d 43.2. 437 (2d Cir. 2004): Colon
v. Coughlin, 58 F.3d 865, 873 (2d Cir. 1995). The theory
of respondeat superior is not available in a § 1983 action.
See Hernandez v. Keane, 341 F.3d 137, 144 (2d Cir. 2003),
Accordingly, “[a] defendant in a § 1983 action may not be
held liable for damages for constitutional violations merely
because he held a high position of authority'.” Victory v.
Pataki, 8 14 F.3d 47, 67 (2d Cir. 2016), as amended (Feb. 24,
2016) (citing Black v. Coughlin. 76 F.3d 72, 74 (2d Cir. 1996).
Direct participation is not always necessary to establish
liability. A supervisory' official may be personally
liable if he or she has actual or constructive notice
of unconstitutional practices and demonstrates gross
negligence or deliberate indifference by failing to act. We
cannot say, however, that an allegation that a supervisory'
official ignored a letter protesting past unconstitutional
conduct is, without more, sufficient to state a claim that the
official was “personally involved" in the unconstitutional
conduct.
Platt v. Inc. 17//. ofSouthampton, 391 F. App'x 62, 65 (2d Cir.
2010) (citations and internal quotation marks omitted).
Here, as discussed earlier Defendants contend that Plaintiff
never put them on notice of the claim being asserted here,
relating to his conditions of confinement in SHU. Plaintiff
claims otherwise, but offers no evidence that would create
a triable issue of fact, in that regard, Plaintiff states that
he talked to Defendants when they toured the SHU, and
sent them letters, but he cannot recall when he spoke to
Defendants, or what he said or wrote to them. Moreover,
Piaintiffcould not even provide a general physical description
of McGinnis or Rock. Plaintiffs most specific evidence on
this point is his deposition testimony that when he spoke
to Goord, Selsky and McGinnis, he asked them to release
him from SHU, to which they responded that he would be

2C21 Thomson Rsjtsrs No -L:!m to onq;nai U.S. Govarr

Encarnacion v. Goord, Slip Copy (2020)

■i

released.when his SHU sentence was completed. However,
even assuming that to be true, Plaintiffs request to be
released frqm SHU would not have put those defendants on

to consider Defendants’ additional arguments directed at the
merits of Plaintiffs claim.

notice that Plaintiff was complaining of an 8 th Amendment
violation. Consequently, the Court finds that Defendants are
entitled to summary' judgment based on Plaintiffs failure to
demonstrate that they were personally involved in the alleged
8^ Amendment violation.

CONCLUSION

Defendants’ Arguments Directed at the Merits
*21 Because the Court, has found that Defendants are
entitled to summary judgment on multiple grounds, it declines

Defendants’ motion for summary' judgment [#87] is granted
and this. action is dismissed with prejudice. The Clerk of the
Court is directed to enter judgment for Defendants and close
this action.
SO ORDERED.
All Citations
Slip Copy, 2020 WL 6291473

Footnotes

1
2

3
4

5

6

7
8
9
10
11

The website of the New York State Department of Corrections and Community Supervision ("DOCCS"),and Plaintiffs
inmate number, DIN 91-B-0943, indicate that he has been in DOCCS’custody since 1991.
In his submissions in this action, Plaintiff maintains that he was wrongfully convicted of both the penal law violations and
the prison disciplinary charge arising from his convictions. Plaintiff spends a great deal of time attempting to re-litigate
the circumstances of the inmate's death, such as by arguing that the deceased inmate had no internal injuries and likely
died from choking on a packet of marijuana, see, e.g., ECF No. 78 at pp, 2-3, or by claiming that Plaintiffs rights were
violated at the prison disciplinary hearing. However, the actual record indicates that the deceased inmate had multiple
stab wounds, one of which penetrated his aorta. More importantly, the circumstances of Plaintiffs criminal law convictions
and the related disciplinary hearing that resulted in his 10-year SHU sentence are not part of this action. The only issue
in this action is whether Plaintiff suffered an Eighth Amendment violation during his time in SHU. See, e.g., Report &
Recommendation, ECF No. 60 at p. 8 (“[T]he Court is mindfui that plaintiffs remaining claim relates to the length and
conditions of his SHU confinement and not to any alleged illegalities relating.to his 1998 disciplinary hearing at Elmira.3
Specifically, as construed by the Second Circuit, plaintiffs amended complaint asserts that "his Eighth Amendment rights
were violated when he was confined in [SHU] for more than 11 years, and denied hygiene products and food.’’").
See, e.g., ECF No. 36-1 at p. 29.
ECF No. 36-1 at pp. 31-37. The disciplinary records contain multiple references to the .fact that Plaintiff has the
demonstrated ability to speak and understand English, but that he sometimes claims otherwise. However, the Court
makes no finding as to Plaintiffs ability to speak English, as it is not relevant to the Court's ruling.
ECF No. 36-1 at p. 49. The incident involved Plaintiffs attempt to mail a $20 bill out of the facility. See, id. at pp.57-61.
The infraction was discovered when a letter enclosing the money, evidently written and signed by Plaintiff, was.returned
to the facility by the postal service due to the lack of a complete address.
ECF No. 36-1 atp. 49. •
Plaintiff had consented in advance to attend a medical appointment outside of the facility, but on the day of the
appointment he refused to leave his cell and refused direct orders to come out and attend the medical appointment, even
after being warned that he would receive a misbehavior report if he failed to attend the appointment.
ECF No. 36-1 atp. 73.
ECF No. 36-1 atp,88-91.
ECF No. 36-1 at p. 98.
ECF No. 36-1 at p. 106.

12
ECF No. 36-1 atp. 115.
13 ‘ ECF No. 38-1 atp. 52.

14

Elsewhere, Plaintiff states that he spent 17 months in SHU at Elmira. ECF No. 78 at p. 12 (Plaintiff stated that he spent
“17 months in Elmira SHU."). However, the period between February 1998 and September 1999 is nineteen months,

VYESTLAW © 2021 Thomson Reuters. No claim to anginal U.S. Gove.

Encarnacion v. Goord, Slip Copy (2020)

15
16
17
18
19
20
21

22
23
24
25

26

27
28
29
30
31
32

not seventeen months. DOCCS records indicate that Plaintiff was transferred from Elmira to Southport on October 1,
1999. ECF 38-1 at p. 25.
ECF No.-78 at p. 6.
ECF No. 38-1 at p. 53.
ECF No. 38-1 at p. 51.
ECF No. 38-1 at p.'52.
ECF No. 38-1 at p. 28. Plaintiff acknowledges that he was transferred to Great Meadow in November 2008. See, ECF
No. 78 atp„12 ("Defendants transferred me to Great Meadow C.F. SHU in November 2008.").
ECF No. 38-1 at p. 52.
Presumably, Plaintiff asserted that his entire alleged 11-year SHU stay resulted from the same incident because he was
aware even then that he faced a statute-of-limitations problem. As will be discussed further below, however, Plaintiffs
time in SHU did not all arise from the same incident.
See also, id. at p, 16 (stating that Plaintiffs SHU confinement lasted “eleven (11) consecutive years from 2/17/98 thru
'3/11/09").
See, Amended Complaint, ECF No. 16 at pp. 33, 36-38, 42-43.
Am. Compl., ECF No. 16, at If 26.
The pleading did not explain the circumstances under which Plaintiff allegedly suffered these.“deprivations.” However, in
a later submission Plaintiff explained that he was referring to instances in which he was deprived of certain items due to
punitive sanctions imposed for infractions he committed while he was in SHU. See, ECF No. 78.
The Amended Complaint asserts that on unspecified occasions during his SHU confinement. Plaintiff, using a SpanishEnglish inmate interpreter, spoke directly to Goord, Selsky and McGinnis and "verbally asked to be released” from SHU.
According to the Amended Complaint, Goord, Selsky and McGinnis all responded identically by stating, “You-will be
released from the SHU when you [have] completed your SHU time.”
ECF No. 16 at p. 61.
Plaintiffs contention that his grievance was never decided is refuted by the exhibits he cites.
This ruling by the Second Circuit has not stopped Plaintiff from subsequently attempting to re-argue, at every opportunity
in this action, the so called double jeopardy claim.
As will be discussed further below. Plaintiff later acknowledged in this action that these "deprivations" were disciplinary
sanctions imposed on him for infractions that he committed while in SHU.
ECF No. 88 at p. 23, -

33 .
34

ECF No. 88 at pp. 30-31 ("[F]or every ticket they gave me, they would take me down to Level One and it was the same
routine there, every time.’’). Plaintiff is referring to the Progressive Inmate Movement System (“PIMS"). See, Ruggiero
v. Fischer, No. 15-CV-00962-RJA-JJM, 2018 WL 7892966, at '1 (W.D.N.Y. Sept. 27, 2018) ("Southport employs a
Progressive Inmate Movement System ("PIMS”). The PIMS system utilizes a three-level scheme designed to afford
Southport inmates the opportunity to achieve increasing privileges as they move from Level I to Level III. Under the PIMS
system, an inmate is designated as Level I for 30 days upon arrival to the facility. All Level I inmates are required to
remain restrained (handcuffed in front with waist chain) while in the recreation area. Id., 10. Inmates are moved to Level
II if they complete 30 days without a disciplinary report. Inmates who “fail to maintain positive adjustment" on Level II or
Level III may be returned to Level I.’’), report and recommendation adopted sub nom. Ruggiero v. Fisher, No. 15-CV-962A, 2019 WL 1438810 (W.D.N.Y. Apr. 1, 2019), aff'd sub nom. Ruggiero v. Fischer, 807 F. App'x 70 (2d Cir. 2020)
ECF No. 88 at p. 32.
ECF No. 88 at p. 32.

35
36
37
38
39

ECF
ECF
ECF
ECF
ECF

40
41
42

No.
No.
No.
No.
No.

88
88
88
88
88

at p, 31; see also, id. at p. 32-33.
at p. 46.
at p. 48.
at p. 48.
at p. 48.

. See, ECF No. 87-3 at pp. 17-19 (Plaintiff described his conversations with Goord by stating; "I explained my situation
and asked if he would let me leave the box.”).
ECF No. 87-3 at pp. 20-21 ("Q. Did you tell him [Goord] about any deprivations when you spoke with him, or no? A. I
don't remember exactly what we spoke about.”).
ECF No. 87-3 at p. 21.

WESTLAW © 2021 Thomson Reuters

to original -J.S. Cover

f\

g,sjgr

Encarnacion V. Goord, Slip Copy (2020)

L

43
44

ECF No. 88 at p, 45.
ECF No. 87-8 at p. 3.

45

See, ECF No. 88 at p. 38 (Plaintiff had “very short” conversations with Goord and cannot remember what they spoke
about).

46

Plaintiff unnecessarily re-filed many pages of documents that were already filed as part of his' earlier submissions or as
part of Defendants’ Summary Judgment Motion.'
ECF No. 89-2 at p. 9, ^ 23.

47

48

\

51

At the same time, it cannot be denied that Plaintiff is a very experienced pro se litigator, having litigated six separate
matters just in the Western District of New York. Indeed, Plaintiff has at times asked the Court to change deadlines to
allow him to work on matters that he had pending in other courts. See, e.g., ECF No: 38-1 at 8 (“On May 10, 2017, the
parties attended a Rule 16 conference, wherein Plaintiff was assisted by a Spanish interpreter and requested'that the
discovery deadlines be postponed until in or about the end of 2017, given that he had other ongoing litigation matters.").
To the extent that Plaintiff may have been referring to the undersigned's earlier dismissal of the double jeopardy cla im
in his habeas petition, the argument nevertheless lacks merit.
See, Ash v. City of New York, No. 1U6-CV-9548-GHW, 2020 WL 58240, at *7 (S.D.N.Y. Jan. 6, 2020) ("Although Mr. Ash
does not explicitly argue that, he is entitled to equitable tolling, the Court addresses the issue sua spohte because Mr. Ash
is proceeding pro se. “Equitable tolling allows courts to extend the statute of limitations beyond the time of expiration as
necessary to avoid inequitable circumstances." Johnson v. Nyack Hosp., 86 F.3d 8, 12 (2d Cir. 1996) (citation omitted).
The Second Circuit “has applied the doctrine as a matter of fairness where a plaintiff has been prevented in some
extraordinary way from exercising his rights, or has asserted his rights in the wrong forum." id. (quotation omitted).
“[Ejquitable tolling is only appropriate in rare and exceptional circumstances." Zerilli-Edelglass v. New York City Transit
Auth., 333 F.3d 74, 80 (2d Cir. 2003) (brackets and quotation omitted). “When determining whether equitable tolling is
applicable, a district court must consider whether the person seeking application of the equitable tolling doctrine (1) has
acted with reasonable diligence during the time period she seeks to have tolled, and (2) has proved that the circumstances
are so extraordinary that the doctrine should apply." Id. at 80-81.”).
ECF No. 38-1 at p. 52.

52
53
54

To be liable under Section 1983, a defendant must have been personally involved in the constitutional violation-.
As already mentioned, the record contains no indication that Plaintiff suffered any "deprivations" while at Great Meadow.
Plaintiff does not claim that administrative remedies were unavailable to him.

49
50

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

fTPfW&zX t’lf

WESTLAW ' €> 2021 Thomson Reuters. No claim to original U.S, Govern?

Additional material
from this filing is
available in the
Clerk's Office.

